j^CELSlSfe

State of New York
Office of the Attorney General
Letitia James

Barbara D. Underwood
Solicitor General
Division of Appeals & Opinions

Attorney General

November 22, 2019
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re: Poole v. New York State Citizens’ Coalition for Children, No. 19-574
Dear Mr. Harris:
I am counsel for petitioner in the above-referenced case. I write in response to
respondent’s November 21, 2019, letter requesting a 30-day extension to January 2,
2020, to respond to the petition for a writ of certiorari.
Petitioner does not oppose an extension, but respectfully requests that the
extension be limited to December 18, 2019, in order to allow this petition to be
considered and granted in time for argument this term. If respondent files its
response by that date, petitioner intends to waive the 14-day waiting period for
distributing the petition and respondent’s brief, and will file its reply brief by
December 24, 2019. That schedule would permit this Court to consider the petition
at its January 10, 2020, conference and, if certiorari is granted, to schedule this case
for argument this term.
Petitioner has a strong interest in prompt resolution of the question presented,
which raises an important threshold issue concerning the availability of a private
right of action enforceable by plaintiffs such as respondent. This litigation has been
pending since 2010, and the court of appeals’ decision below has created genuine
uncertainty about the State’s foster care obligations going forward. Reversal of that
decision would resolve that uncertainty, obviate further proceedings, and finally
conclude this litigation.

28 Liberty Street, New York, NY 10005-1400 • Phone (212) 416-8020 • Fax (212) 416-8962 *Not for Service of Papers
WWW.AG.NY.GOV

I have informed counsel for respondent of this proposed alternative schedule
but have not received a response.
Respectfully submitted,

Steven C. Wu
Deputy Solicitor General
cc: Brian R. Matsui, Counsel to Respondent

2

